Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Quality of Care in Nursing Homes:
             An Overview




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1999
                      OEI-02-99-00060
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos                                        Susan Burbach



       To obtain copies of this report, please call the New York Regional Office at 212-264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                          EXECUTIVE SUMMARY

PURPOSE

         To describe general conditions in nursing homes and assess the overall capacity of systems
         designed to monitor and improve quality of care.

         This report is based primarily on recent studies conducted by the Office of Inspector
         General (OIG) on quality of care in nursing homes. It draws additionally upon work
         completed by the General Accounting Office (GAO), the Health Care Financing
         Administration (HCFA), and others. The report summarizes steps taken recently and now
         underway to address weaknesses in the system. It also provides a long term program of
         action and research needed to assure nursing home care meets government standards for
         quality of care.

BACKGROUND

         While some studies indicate that changes in law and regulations may have had a positive
         effect on improving the environment and overall health care of nursing home patients,
         recent reports by HCFA and GAO have raised serious concerns about patient care and well-
         being. The Senate Special Committee on Aging held hearings in the summer of 1998 on
         these reports. At the same time, the OIG undertook a series of studies aimed at assessing
         the quality of care in nursing homes.

         Various systems are in place to monitor and promote quality of care in nursing homes.
         These include the State survey and certification system, the State Long Term Care
         Ombudsman Program, State resident abuse safeguards, law enforcement, and legislative
         reforms established by the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987).

         We used multiple methods for this report. They consist of an analysis of national nursing
         home program data, a review of written program procedures, structured telephone
         interviews, an examination of nursing home survey results availability, a literature review,
         and an analysis of nursing home legislation.

FINDINGS

Serious Quality of Care Problems Persist in Nursing Homes

         An analysis of currently available program data reveals that problems with quality of care
         continue to exist in nursing homes. First, according to survey and certification data, 13 of


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         1                                  OEI-02-99-00060
         25 “quality of care” deficiencies have increased in recent years. They include a lack of
         supervision to prevent accidents, improper care for pressure sores, and lack of proper care
         for activities of daily living. At the same time, ombudsman complaints have been steadily
         increasing since 1989 and complaints about resident care, such as pressure sores and
         hygiene, have been particularly prevalent. Since 1995, the OIG has excluded 668 nursing
         home workers from participation in the Medicare/Medicaid programs as a result of a
         conviction related to patient abuse or neglect. On a related note, approximately one percent
         or more of nursing home residents have had an experience serious enough to register an
         abuse complaint. Lastly, survey and certification data, as well as discussions with survey
         and certification staff and ombudsmen, reveal that some nursing homes are chronically
         substandard.

         Experienced officials with inside information based on onsite visits to nursing homes,
         including State survey directors, surveyors, ombudsmen, and State Aging Unit Directors,
         express some reservations about relying exclusively on program data to gauge conditions in
         nursing homes. Nevertheless, they confirm that problems persist in nursing homes, such as
         malnutrition, abuse, pressure sores, and over-medication. The problems they identify are
         similar to the problems highlighted in their program reporting systems.

Evidence Suggests Inadequate Levels of Nursing Home Staff Contribute to Quality
of Care Problems

         In all 10 sample States, survey and certification staff, State and local ombudsmen, as well as
         State Aging Unit Directors identify inadequate staffing levels as one of the major problems
         in nursing homes. Most believe these staffing shortages lead to chronic quality of care
         problems, such as failure to adequately treat and prevent pressure sores.

         The type and extent of survey deficiencies and Ombudsman program complaints also
         suggest that nursing home staffing levels are inadequate. Common personal care problems
         such as lack of nutrition and poor care for incontinence suggest that staffing is inadequate
         to provide the level of care needed to avoid these problems. Furthermore, specific
         complaints about nursing home staff are some of the most common types of Ombudsman
         program complaints in 1997.

Survey and Certification Agencies are Following Required Standard Protocols but
Weaknesses in the Survey System Itself Limit Their Effectiveness

         State survey and certification agencies monitor nursing home care with timely and standard
         surveys, complaint procedures, and other State procedures. However, the survey and
         certification system has several weaknesses, such as the predictability of surveys. Although
         all States use unannounced surveys, State directors and surveyors believe that nursing
         homes can anticipate their survey date and modify their procedures to avoid being cited for


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         2                                  OEI-02-99-00060
         deficiencies. The system is also limited by weak enforcement, including inadequate follow-
         up and common inaction on abuse complaints. State directors and surveyors believe that
         the current process allows deficient facilities too many opportunities to avoid enforcement
         action. Lastly, survey and certification agencies have some staffing constraints and do not
         always effectively coordinate with ombudsmen.

While the Ombudsman Program is Well Designed, Inadequate Resources Limit Its
Capacity

         The Ombudsman program has several functions to promote and monitor quality of care in
         nursing homes, including identifying and resolving complaints, making regular visits to
         nursing homes, and engaging in a variety of different advocacy activities. While lacking
         enforcement and regulatory oversight, ombudsmen act as independent advocates and work
         solely on behalf of residents to ensure they have a voice in their own care. However, the
         Ombudsman program is limited by inadequate resources, including inadequate staffing.
         Only 1 of 10 States in our sample had a paid ombudsman to bed ratio higher than the
         standard suggested by the Institute of Medicine. This lack of adequate staffing is
         particularly evident in the limited extent to which ombudsmen make regular nursing homes
         visits. The program is further constrained by the lack of a common standard for complaint
         response and resolution, inconsistent advocacy efforts, a lack of support, and limited
         collaboration with surveyors.

State Systems to Safeguard Nursing Home Residents from Abuse are Inconsistent
and Unreliable

         Based on findings from a recent OIG audit, “Safeguarding Long Term Care Residents,” A-
         12-97-0003, it appears that some weaknesses exist in State efforts to safeguard nursing
         home residents from abuse. This audit revealed great diversity in the way States
         systematically identify, report, and investigate suspected abuse, and it found that there was
         no assurance that individuals who posed a risk of abuse were systematically identified and
         barred from nursing home employment. Additionally, a more in-depth audit of Maryland
         examined eight nursing homes in the State and found that five percent of employees in those
         homes had criminal records.

Public Awareness and Access to Nursing Home Survey Results is Limited

         Public awareness of nursing home survey results is limited and these results are not always
         readily available. Two-thirds of 155 families interviewed in eight sample cities did not
         know that the results of Federal and State nursing home inspections are available on
         request. Additionally, half were unaware such inspections are required, and only 15 had
         ever requested a copy of survey results. Of the 11 who obtained a copy, 6 said the results
         were not based on the most recent survey. Furthermore, when staff from the OIG visited

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         3                                 OEI-02-99-00060
         the 32 sampled nursing homes, most did not fully meet the requirements for making survey
         results available. The HCFA has established a more easily accessible version of nursing
         home survey results with an internet site entitled Nursing Home Compare which appears
         promising.

New Initiatives Based on Law Enforcement Approaches are Being Considered

         Initiatives that use the False Claims Act and other law enforcement approaches as a way to
         strengthen nursing homes are relatively new. National task forces comprised of
         representatives from the Department of Justice, HCFA, OIG, and others are being formed
         at the local, State, and national levels. These groups will examine the full range of
         enforcement issues and develop corresponding action plans for each. By targeting key
         strategic areas and coordinating among the various agencies responsible for nursing home
         enforcement, these initiatives appear promising. However, it is too soon to determine their
         full impact.

Nursing Home Reforms Established by OBRA 1987 Have Not Been Systematically
Assessed

         The nursing home reforms created by OBRA 1987 impacted both nursing home systems
         and nursing home care. The OBRA 1987 mandated that residents be given certain rights
         and services and also added several administrative standards that nursing homes are
         required to meet. It further changed enforcement and survey procedures. While it has now
         been more than a decade later since this legislation was passed, there has been no systematic
         assessment of its extensive agenda and no methodical evaluation of whether the reforms it
         intended are actually working. While some studies have attributed positive changes to
         OBRA 1987, the lack of a systematic review makes it difficult to determine if this major
         legislation has been successful in improving nursing home care.

AN AGENDA FOR CONTINUING IMPROVEMENT IN NURSING HOME
CARE

         Since OBRA 1987 was first passed, real improvements have been made in nursing home
         care. More recently, considerable attention has been paid to addressing persisting concerns
         about nursing home conditions and systems. In particular, we commend the Health Care
         Financing Administration (HCFA) for its extensive nursing home initiative since it addresses
         many of these persisting problems. This initiative includes many individual action items
         which should result in positive changes. Additionally, the Administration on Aging (AoA)
         has been taking steps to enhance the Ombudsman program, including improving the
         program reporting system and conducting annual training of ombudsman staff.

         The problems we describe in this report will require continuing attention, possibly for

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         4                                 OEI-02-99-00060
         several years. The broad outline of an effective strategy would include actions to:

                   <         enhance the survey and certification process;

                   <         strengthen the Ombudsman program with increased resources;

                   <         improve nursing home staffing levels; and,

                   <         improve coordination between State survey agencies and ombudsmen. 


         We also believe that further evaluation and progress measurement would make an important
         contribution to efforts to advance nursing home care. We specifically suggest:

                   <         a systematic assessment of OBRA 1987 and

                   <         the creation of a periodic report card on conditions in nursing homes.


         We have incorporated action items from HCFA’s nursing home initiative, AoA’s
         ombudsman activities, recommendations for additional steps to be taken, current OIG work,
         and areas requiring further evaluation into one comprehensive, long term agenda to
         continue improvements in nursing home care. This agenda consists of a three stage
         approach of immediate action, research and evaluation, and continued progress
         measurement. The full agenda can be found on page 28.

AGENCY COMMENTS

         This report is based primarily on a series of recent studies conducted by the Office of
         Inspector General on nursing home care. They are:

                   Nursing Home Survey and Certification: Deficiency Trends, OEI-02-98-00331;

                   Nursing Home Survey and Certification: Overall Capacity, OEI 02-98-00330;

                   Long Term Care Ombudsman Program: Complaints Trends, OEI-02-98-00350;

                   Long Term Care Ombudsman Program: Overall Capacity, OEI-02-98-00351;

                   Public Access to Nursing Home Survey and Certification Results, OEI-06-98-

                   00280; and

                   Safeguarding Long Term Care Residents, A-12-97-0003.


         We received detailed comments from HCFA, AoA, and the Assistant Secretary for Planning
         and Evaluation on the above reports. We made modifications in each report to respond to
         the comments received and to reflect the actions already being taken to improve nursing
         home conditions. This overview report also incorporates many of these modifications. We
         encourage everyone to read the individual reports and the comments we received on them.
         The comments are included in each report.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         5                                      OEI-02-99-00060
                       TABLE OF OF CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS

      Serious Quality of Care Problems Persist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Nursing Home Staffing is Inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          Survey and Certification Follows Protocols but Limited by System Weaknesses . . . . . . . 22


          Ombudsman Program Well Designed but Lacks Adequate Resources . . . . . . . . . . . . . . . 23


          State Resident Abuse Safeguards Inconsistent and Unreliable . . . . . . . . . . . . . . . . . . . . . 25


          Awareness and Access to Survey Results Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


          New Law Enforcement Initiatives Being Considered . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


          OBRA 1987 Lacks Systematic Assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


AN AGENDA FOR CONTINUING IMPROVEMENT IN NURSING HOME CARE . . . . . 28


          Immediate Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


          Research and Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


          Progress Measurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33





                                                        )))))))))))
Quality of Care in Nursing Homes: An Overview                 6                                                      OEI-02-99-00060
                                      INTRODUCTION

PURPOSE

         To describe general conditions in nursing homes and assess the overall capacity of systems
         designed to monitor and improve quality of care.

         This report is based primarily on recent studies conducted by the Office of Inspector
         General (OIG) on quality of care in nursing homes. It additionally draws upon work
         completed by the General Accounting Office (GAO), the Health Care Financing
         Administration (HCFA), and others. The report summarizes steps recently taken and now
         underway to address weaknesses in the system. It also provides a long term program of
         action and research needed to assure nursing home care meets government standards for
         quality of care.

BACKGROUND

         While some studies indicate that changes in law and regulations may have had a positive
         effect on improving the environment and overall health care of nursing home residents,
         recent reports by HCFA and GAO have raised serious concerns about residents’ care and
         well-being. The Senate Special Committee on Aging held hearings in the summer of 1998
         on these results. The OIG subsequently undertook a series of studies aimed at assessing
         the quality of care in nursing homes. This report looks at both the general state of nursing
         home care as well as the systems designed to oversee that care.

         Generally, a nursing home is a residential facility offering daily living assistance to
         individuals who are physically or mentally unable to live independently. Residents are
         provided rooms, meals, assistance with daily living, and in most cases, some medical
         treatment. In 1989 Medicare paid $2.8 billion to nursing homes, an amount totaling 4.7
         percent of the Medicare budget. In 1996 this amount had increased to $10.6 billion,
         totaling 9 percent of the Medicare budget. Medicaid expenditures for nursing homes in
         1996 totaled $24.3 billion.

         In 1986, the Institute of Medicine conducted a study on nursing home regulations and
         reported prevalent problems regarding the quality of care for nursing home residents, as
         well as the need for stronger Federal regulations. Just one year later, GAO reported that
         over one third of nursing homes were operating below Federal minimum standards. These
         reports, along with widespread concern regarding nursing home conditions, persuaded
         Congress to pass the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987). As a part
         of OBRA 1987, Congress passed the comprehensive Nursing Home Reform Act (PL 100-


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         7                                 OEI-02-99-00060
         203). These actions expanded requirements that nursing facilities had to comply with in
         order to obtain Medicare certification. The Nursing Home Reform Act also strengthened
         the rights to nursing home residents, such as the right to be free of physical or mental abuse,
         and the right to be free from chemical and physical restraints. It additionally altered the
         enforcement of Federal standards for nursing home care.

Medicare Nursing Home Requirements

         The Health Care Financing Administration (HCFA) has the responsibility to act as a
         “prudent purchaser” by ensuring that nursing homes participating in Medicare and/or
         Medicaid meet certain requirements for quality environment and services. These
         requirements are found at 42 Code of Federal Regulations (CFR) Part 483, Subpart B. The
         Nursing Home Reform Act added to these requirements by introducing an increased focus
         on the quality of life and care, the importance of the individual resident, the need to help
         residents reach the “highest practicable level” of functioning, and the requirement that
         residents be interviewed and assessed.

         Nursing homes must “conduct standardized, reproducible assessments of each resident’s
         functional capacity...” within 14 days of admission. Additionally, periodic assessments must
         occur throughout the duration of a patient’s stay in order to continually address their
         fluctuating needs. With the Nursing Home Reform Act, HCFA developed the Minimum
         Data Set (MDS) which is comprised of core elements and common definitions used in
         conducting resident assessments. The Minimum Data Set collects data through resident
         assessment measures, with subsequent progress or decline documented in electronic format.


         The Nursing Home Reform Act additionally established new enforcement provisions, which
         were enacted when the State Operations Manual (SOM) became effective on July 1, 1995.
         The HCFA had several process goals during the implementation of these new provisions:
         promoting consistency through extensive training; linking appropriate remedies to
         deficiencies; and avoiding unnecessary procedures. Congress recognized that one
         enforcement response would not be appropriate for all deficiencies. It therefore established
         enforcement policies that gave HCFA the license to impose a variety of corrective measures
         for noncompliant facilities. These include: temporary management; denial of payment for
         new admissions; civil money penalties; termination of the facility; and State monitoring of
         the facility. States are responsible for establishing their own remedy guidelines.

         Following the implementation of the State Operations Manual, HCFA also imposed a
         number of administrative changes on enforcement procedures . In June 1995, HCFA
         enacted a temporary moratorium on the collection of certain lower-level money penalties
         (CMPs). This moratorium preceded HCFA’s decision to alter the State Operations Manual
         in December of 1996. “Civil monetary penalties are now limited to situations of immediate
         jeopardy or to nursing facilities that are poor performers or have serious deficiencies that

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         8                                  OEI-02-99-00060
         are not corrected at the time of a revisit.” Additional changes by HCFA redefined the scope
         of deficiencies, permitted States to avoid revisits in facilities that have lower level
         deficiencies, and established new terms to define facilities that are not in substantial
         compliance.

Nursing Home Systems

         Survey and Certification. All nursing homes participating in Medicare and/or Medicaid
         must be certified in meeting certain Federal requirements. The Nursing Home Reform Act
         defines the State survey and certification process for determining nursing home compliance
         with these Federal standards. The HCFA is responsible for certifying Medicare and dually-
         eligible facilities, while States are responsible for Medicaid only facilities. Nursing home
         certification is achieved through routine surveys, and HCFA contracts with States to
         perform such surveys for Medicare and dually-eligible nursing homes, in addition to those
         they perform for Medicaid nursing homes.

         State surveys determine the compliance or noncompliance of nursing homes. When a
         nursing home fails to meet a specific requirement, surveyors give it a deficiency or citation.
         Generally, there are 20 principles that are considered in the citation of deficiencies on the
         HCFA-2567. Surveyors also provide the reasons justifying any resulting enforcement
         action and the record on which to defend that action in the appeals process. State survey
         teams generally consist of multi-disciplinary professionals and must include a registered
         professional nurse. Other professionals who may be on the survey team include social
         workers, therapists, dieticians, pharmacists, administrators, and physicians.

         Each State is also required to maintain written procedures and adequate staff to investigate
         complaints of violations at nursing homes. States must review all allegations of resident
         neglect and abuse, and misappropriation of resident property. All allegations, regardless of
         source, must be reviewed in a timely manner. If an allegation is found to have occurred, the
         State must notify, in writing, the individuals implicated and the administrator of the nursing
         home where the incident transpired.

         A new survey and certification process was implemented in 1995. All nursing facilities are
         now subject to an unannounced standard survey “no later than 15 months after the date of
         the previous standard survey.” Since the Statewide average interval between standard
         surveys “must be 12 months or less,” this creates a Federal standard survey window
         between 9 and 15 months. Each standard survey includes a stratified case mix of nursing
         home residents, and measures their medical, nursing and rehabilitative care, dietary and
         nutrition services, activities, social participation, sanitation, infection control, and physical
         environment. Written plans of care are reviewed to determine their adequacy and an audit
         of residents’ assessments are conducted to determine the accuracy of such assessments.
         There is also a review of facility compliance with residents’ rights.


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview         9                                     OEI-02-99-00060
         In addition to regular surveys, States also conduct “special” and “extended” surveys.
         Special surveys may be conducted within two months of any change in ownership,
         administration, management, or director of nursing to determine if the change is having an
         effect on the quality of care in the nursing home. Extended surveys are performed
         immediately or within two weeks after the standard survey completion, on those nursing
         homes found to have provided substandard quality of care. The survey team reviews the
         policies and procedures that produced the substandard care, expands the size of the sample
         of resident’s assessments, reviews staffing, in-service training, and if necessary, contracts
         with consultants.

         Within two months of the State survey, HCFA conducts validation surveys on a
         representative sample of nursing homes in each State utilizing the same survey procedure as
         the State agency. Recently, some HCFA regional offices have chosen to conduct these
         validation surveys simultaneously with the State. The HCFA must survey at least five
         percent of the number of facilities surveyed by the State each year, and this number must
         never be less than five surveys a year.

         In order to improve the survey process, the State Agency Quality Improvement Program
         (SAQIP) was developed to establish a process for State agencies and HCFA regional offices
         to work together to develop the State’s individual quality improvement plans (IQIPs). The
         regional office will assist the State by providing training, technical assistance, and support
         as necessary and appropriate. These individual plans are tailored to the specific needs and
         circumstances of each State, and are revised and improved based on changing needs. The
         SAQIP is designed to promote quality and ongoing improvement in survey and certification
         activities, and applies to all aspects of the survey and certification process.

         The HCFA’s Online Survey Certification and Reporting System (OSCAR) came online in
         October 1991. The HCFA uses OSCAR in its survey of Medicare and Medicaid providers
         to monitor State agency and provider performance. The OSCAR contains data for the
         current and 3 previous surveys. Some of the data is overwritten as new information is
         entered (e.g. number of beds, address, and employment information), but deficiency data
         remains and is tracked historically. The HCFA recently began tracking the scope and
         severity of deficiencies historically as well. Part of the OSCAR data is self-reported
         information by the nursing homes about the facility and its’ patients. The remaining data is
         information generated by the surveyors and is based on deficiencies. The Federal
         regulations detailing survey requirements are classified into 17 major categories. The
         specific survey requirements within these categories were consolidated from 325 individual
         items to 185 items on July 1, 1995.

         Ombudsman Program. In response to growing concerns about poor quality care in
         nursing homes and to protect the interests of residents, the State Long Term Care
         Ombudsman program was established in 1978 in the Older Americans Act. The
         ombudsmen advocate on behalf of residents of all long term care facilities, including nursing

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        10                                  OEI-02-99-00060
         homes, to ensure residents have a strong voice in their own treatment and care.


         The Ombudsman Program operates in all fifty States, the District of Columbia, and Puerto

         Rico, and in hundreds of local communities, and uses both paid and volunteer staff. The

         program receives funding from Federal, State and local levels, and is overseen by the

         Administration on Aging (AoA). Most State ombudsmen operate within the State Unit on

         Aging, some of which are independent while others are part of a larger State umbrella

         agency. The remaining State Ombudsman programs are contracted out and administered by

         an entity separate from the State Unit on Aging. These programs are operated by non-

         profit organizations, legal services agencies, or by freestanding Ombudsman program

         agencies. 


         State Ombudsman programs have multiple functions that are mandated by law, many of

         which are closely tied to ensuring quality care for long term care residents. They include:


         C         identifying, investigating, and resolving complaints;

         C         protecting the legal rights of patients; 

         C         advocating for systemic change;

         C         providing information and consultation to residents and their families; and

         C         publicizing issues of importance to residents


         States have recently started to collect and report data under a new system. In FY 1995,

         States began to systematically collect and report data under the National Ombudsman

         Reporting System (NORS). Prior to NORS, States reported data to AoA, which was of

         limited use due to the lack of common definitions for key data elements. The NORS was

         created in response to earlier recommendations made by the General Accounting Office and

         the Office of Inspector General, and was developed by the ombudsmen themselves. It

         includes more specific data elements than were reported before NORS. For example, it

         separates complaints by type, distinguishes between complaints and complainants, counts

         unresolved complaints, and reports program funding streams. Twenty-nine States reported

         under NORS in 1995 and all States did so annually beginning in 1996.


         Resident abuse safeguards. Federal regulations require States to establish a registry of

         nurse aides that includes information on any aide found guilty of abuse or neglect. 

         Regulations also mandate that nursing homes not employ individuals who have been found

         guilty of abusing or neglecting nursing home residents. States are additionally required to

         provide criminal information to the OIG national database, which is then used to publish a

         monthly exclusion list. However, there is no Federal requirement to conduct criminal

         background checks of all current or prospective employees of Medicare and/or Medicaid

         participating nursing homes.





                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        11                                    OEI-02-99-00060
         Other procedures have also been established to coordinate the reporting of resident abuse
         allegations. Each State is required to designate a coordinator with central State authority to
         receive complaints of mistreatment or neglect of nursing home residents. While this
         individual or entity may be located in any number of State agencies or within a designated
         complaint unit, the responsibility is often assigned to an employee of the State survey and
         certification agency.

         Families. Families are in the best position to help choose a nursing home and to monitor
         the care provided in that home. To do this, they need accurate and timely information
         about the quality of care in the nursing home they choose. A nursing home’s most recent
         annual survey results are, theoretically, ideally suited for this purpose. Various laws and
         regulations are intended to make these results available to the public, including the
         requirement that nursing homes post a notice giving the location and availability of its most
         recent survey results.

         Law enforcement. Several different agencies have responsibility for nursing home law
         enforcement, including the Department of Justice, the OIG, and State agencies such as the
         State Attorney General. The local police force also plays an enforcement role. A nursing
         home facility, owner, or other employee (such as a nurse aide or administrator) may be
         excluded from participation in Medicare and Medicaid after appropriate enforcement action
         is taken.

         Recently, poor quality of care has been the basis of a prosecution under the False Claims
         Act. When providers submit claims for reimbursement, they certify either explicitly or
         implicitly that the services provided meet professional standards; if they "knowingly"
         present a claim for substandard services, they could be liable under the False Claims Act.
         Thus, under appropriate circumstances, the Government can use the False Claims Act to
         prosecute a provider who knowingly presents false or fraudulent claims to the government
         for substandard care in nursing homes. The two major cases where the False Claims Act
         has been used involve grossly deficient diabetes monitoring, pressure sore care, and other
         nursing care. In both the landmark 1996 case against Geriatric & Medical Cos., Inc. and its
         Tucker House facility and the 1998 case against the Chester Care chain of four nursing
         homes, the OIG obtained civil settlements for $500,000 each. As part of the settlement
         agreements, the companies were required to develop comprehensive compliance programs.
         In addition, in the Chester Care case, the company was required to pay for a temporary
         manager and monitor to oversee provision of care.

         Legislative reforms (OBRA 1987). As previously noted, the OBRA 1987 legislation and
         ensuing regulations established a framework for nursing home reform. It specifically
         provided an agenda for nursing home care by mandating that residents be given certain
         rights and services, and adding several administrative standards that nursing homes were
         required to meet. It also established new survey and enforcement requirements, including
         making surveys more resident focused and augmenting existing enforcement options.

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        12                                 OEI-02-99-00060
Prior Studies and Recent Initiatives

         Several studies have been completed which have examined the survey and certification
         process. One recent study entitled “The Regulation and Enforcement of Federal Nursing
         Home Standards,” written by Charlene Harrington and published in March of 1998, details
         problems with nursing home certification. She challenges the declining State deficiency
         averages by raising the notion that the enforcement process may be weakening rather than
         nursing facilities improving quality of care.

         Furthermore, “The National State Auditors Association Joint Performance Audit on Long-
         Term Care,” completed in May of 1998 by the Louisiana Office of the Legislative Auditor,
         compiled information from ten States regarding survey and certification concerns. Issues
         discussed include licensing, inspection, sanctions, complaints, and reimbursement. The
         audit findings conclude that States should vary the timing of inspections, evaluate how
         aggressively they are imposing State sanctions on facilities with deficiencies, and avoid
         delaying the investigation of complaints.

         Many studies have also reported on the progress and impact of the Ombudsman Program.
         One of the most recent, “Real People, Real Problems,” published in 1995 by the National
         Academy of Sciences’ Institute of Medicine, looked at the Ombudsman program overall.
         This study reported on State compliance, conflicts of interest, effectiveness, resources, and
         the need for future expansion of the program. It found that, overall, the Ombudsman
         program is effective. It also reported lack of access to ombudsman services by residents
         and their families, disparities in ombudsman visitation patterns and service provision, and
         uneven legal services available to ombudsmen.

         Additionally, the Inspector General issued several reports on the Program in 1991 and
         1992. First, “Successful Ombudsman Programs,” (OEI-02-90-02120), the main report in a
         series of reports on the Ombudsman program, found that successful programs are highly
         visible and obtain adequate funding and support. Furthermore, “State Implementation of
         the Ombudsman Requirements of the Older Americans Act,” (OEI-02-91-01516), found,
         among other things, that State program staffing and long term care facility visitation varies
         significantly. It also found that ombudsmen use many methods to increase their visibility.

         In July, 1998, the President announced a new nursing home care initiative to provide
         enhanced protections and to target needed improvement in nursing home care. Proposed
         actions include checking criminal backgrounds of nursing home workers, establishing a
         national registry of employees convicted of abusing patients, targeting nursing home chains
         with poor records, cutting off inspection funds to States with poor records of citing
         substandard quality of care, publishing annual nursing home surveys on the Internet,
         increasing Federal oversight of State inspections, providing additional training to State
         officials, changing the survey schedule to make them more unpredictable, and increasing the

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        13                                  OEI-02-99-00060
         number of night and weekend surveys.

         In conjunction with the President’s nursing home initiative, the Secretary released a report
         to Congress in July of 1998, a “Study of Private Accreditation (Deeming) of Nursing
         Homes, Regulatory Incentives and Non-Regulatory Initiatives, and Effectiveness of the
         Survey and Certification System,” indicating that significant improvements in the quality of
         care had been made since 1995. These improvements included more appropriate use of
         physical restraints, anti-psychotic drugs, anti-depressants, urinary catheters, and hearing
         aids. However, the report did find a need for further improvements by States, nursing
         homes, and others. Additional steps will be taken to address the problems identified in the
         report and include tougher enforcement of Medicare and/or Medicaid rules. Efforts will be
         aimed at preventing instances of pressure sores, dehydration, and nutrition problems. The
         following are new approaches aimed at improving quality of care: facilities that have repeat
         offenses will face sanctions without a grace period; inspections will be conducted more
         frequently for repeat offenders without decreasing inspections at other facilities; inspections
         will be staggered; a set amount of inspections will be conducted on weekends; and efforts
         will be focused on facilities within chains that have a record of non-compliance.
         One week after the President’s initiative, the General Accounting Office (GAO) published a
         report examining the quality of care in 1,370 California nursing homes that were inspected
         from 1995 to 1998. They found 30 percent of the homes had violations that caused death
         or life-threatening harm to residents, or had understated the frequency of poor care by
         falsifying medical records. As a result of this report, the US Senate Special Committee on
         Aging held hearings in July 1998 to discuss the findings on the quality of care in nursing
         homes.

METHODOLOGY

         Multiple methods were used for this report. They include an analysis of national nursing
         home program data, a review of written program procedures, structured telephone
         interviews, a literature review, and an analysis of nursing home legislation.

Description of nursing home conditions

         Data Analysis

         Survey and certification data. We used a purposive sample of 10 States which represent
         55.8 percent of total skilled nursing beds nationally. These States are New York,
         California, Texas, Ohio, Illinois, Pennsylvania, Massachusetts, Florida, New Jersey, and
         Tennessee. The OSCAR contains data for the current and 3 previous surveys and
         categorizes deficiencies into 17 major categories. Using the most recently available
         OSCAR data (from August 4, 1998), 3 of the 17 categories which could determine poor
         quality of care were analyzed. These are: 1) resident behavior and facility practices,


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        14                                   OEI-02-99-00060
         including the areas of restraints, abuse and staff treatment of residents; 2) quality of life,
         including the resident’s ability to make decisions about his or her daily activities and the
         nursing home’s accommodation of his or her needs; and 3) quality of care, including the
         technical ability of the nursing home to prevent and treat the medical conditions of its
         residents. Substandard quality of care deficiencies repeated over the last four surveys and
         abuse complaint data were also examined.

         Ombudsman data. Using the same purposive sample of 10 States, we analyzed 2 sets of
         Ombudsman program data. For 1996 and 1997, data from the National Ombudsman
         Reporting System (NORS) was examined; from 1989 to 1994, data from the pre-NORS
         reporting system was used. Data from 1995 is not analyzed due to a lack of comparable
         data elements for that year. For both pre-NORS and NORS data, figures for both total
         complaints and broad complaint categories are presented; for NORS data, 125 specific
         complaint types were also looked at. Finally, data on Ombudsman program staffing,
         visitation rates, advocacy activities, and coordination with survey and certification agencies
         was also examined.

         Abuse complaints. Using a fax survey, we obtained data from all 10 States on the
         numbers and types of nursing home resident abuse complaints. We specifically analyzed
         data on four types of complaints selected as key indicators of recent abuse trends: physical
         abuse, inappropriate use of restraints, physical neglect, and medical neglect.

         OIG convictions. We reviewed data from the Office of Inspector General on nursing home
         convictions relating to resident abuse or neglect, from 1995 to 1998.

         Literature review

         We examined findings on nursing home conditions from several studies, particularly the
         recent GAO report entitled “California Nursing Homes: Care Problems Persist Despite
         Federal and State Oversight.”

Assessment of nursing home systems

         Procedures review

         Survey and certification procedures. For the eight States that have their own survey
         guidelines which they use in addition to HCFA guidelines, we obtained and reviewed their
         written program procedures and other related documents. The remaining two States had no
         survey requirements of their own.

         Ombudsman procedures. Written procedures for all 10 sample State Ombudsman
         programs were obtained and reviewed. Using a structured review guide, these procedures
         were reviewed to determine the different processes used by ombudsmen to monitor and

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        15                                   OEI-02-99-00060
         promote quality of care in nursing homes. Standards mandated for these processes, such as
         complaint response times, were also looked at.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        16                              OEI-02-99-00060
         Interviews

         Survey and certification telephone interviews. A total of thirty structured telephone
         interviews were conducted. In each of the 10 sample States, one interview was conducted
         with the State survey and certification director (or designee) and two State surveyors. The
         two State surveyors were selected randomly from a list of at least 10 surveyors submitted
         by the State director. During these interviews, information was obtained about the State
         survey and certification program structure, the processes utilized to monitor quality of care,
         how deficiencies are addressed, and the satisfaction of State survey and certification
         directors and surveyors with the process. Information provided by the directors was
         compared to that provided by surveyors, and special attention was given to consensus
         within and among the groups.

         Ombudsman telephone interviews. A total of 30 structured telephone interviews were
         conducted. In each of the 10 sample States, one interview was conducted with the State
         ombudsman, one local program ombudsman, and the State Aging Unit Director or
         designee. In selecting ombudsmen from local programs to interview, individuals from a
         variety of local program structures were chosen. These three groups of respondents were
         selected to obtain their different perspectives of the program and consensus among the
         groups was particularly noted while analyzing the interviews.

         Examination of nursing home survey results availability

         To examine the availability of survey results, we used a different sample and methodology.
         We selected a purposive sample of eight cities, each one having a regional Office of
         Evaluations and Inspections (San Francisco, Atlanta, Chicago, Boston, Kansas City, New
         York, Philadelphia, and Boston). We then combined five methods to assess the availability
         of survey results: telephone interviews with 155 family members; a simulation by OIG staff
         of families’ access to nursing home results; telephone requests to HCFA and State officials
         for survey results; a review of HCFA’s new internet site for survey results; and a review of
         Federal rules and procedures regarding access to survey results.

         Literature review

         We also conducted a literature review of recent nursing home studies which assessed
         nursing home systems. We particularly used an OIG report entitled “Safeguarding Long
         Term Care Residents.”

         Legislation review

         Finally, we reviewed nursing home legislation, particularly OBRA 1987. We identified each
         of the individual reforms outlined in OBRA 87 and determined which ones had been
         assessed for impact and outcome. Lastly, we reviewed the mission statement and agenda

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        17                                  OEI-02-99-00060
         for recent nursing home law enforcement initiatives.

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        18                            OEI-02-99-00060
                                                FINDINGS

Serious quality of care problems persist in nursing homes

         Survey and certification deficiencies. An analysis of survey and certification deficiencies
         indicates that problems with quality of care continue to exist in nursing homes. Deficiencies
         are grouped into one of three main categories, and while two of these categories have been
         decreasing, many deficiencies in the “quality of care” category have actually been
         increasing. More specifically, 13 of the 25 deficiencies that make up this category are
         higher now than they were on the last 3 surveys. These 13 deficiencies were cited 6,413
         times on the current survey, compared to 5,246 times three surveys prior, an increase of
         almost 25 percent. They include a lack of adequate supervision to prevent accidents, a lack
         of appropriate care for activities of daily living, and improper care for pressure sores.
         Graph A below shows how some of these serious deficiencies have grown over the prior 3
         surveys.


                                              Graph A
                   Some Serious Quality of Care Deficiencies Have Been Increasing




         Deficiencies often lead to further medical problems or indicate other issues. For example,
         pressure sores could be an indication that residents also have other problems, such as
         urinary incontinence, malnutrition, or dehydration. Table 1 below shows the nature and
         extent of the top 10 substandard quality of care deficiencies from the latest standard survey
         in the 10 sample States.


                                                 )))))))))))
Quality of Care in Nursing Homes: An Overview         19                                OEI-02-99-00060
                                                Table 1
                           The Top 10 Substandard Quality of Care Deficiencies
                                    Include Some Serious Problems

                                                   # of Sample State   % of Sample State
                              Deficiency              Deficiencies         Facilities

                  Proper treatment to prevent           1186                 16%
                  or treat pressure sores
                  Facility free of accident             1164                 16%
                  hazards
                  Facility promotes care that           1115                 16%
                  maintains/enhances dignity

                  Housekeeping and                      1023                 14%
                  maintenance
                  Provides necessary care for            972                 14%
                  highest practicable well-
                  being

                  Right to be free from                  958                 13%
                  physical restraints
                  Should have policies that              787                 11%
                  accommodate needs

                  Drug regimen free from                 768                 11%
                  unnecessary drugs
                  Appropriate treatment for              750                 10%
                  incontinence
                  “Activities of daily living”           699                 10%
                  care provided for dependent
                  residents


         In its recent report entitled “California Nursing Homes: Care Problems Persist Despite
         Federal and State Oversight” the GAO examined the quality of care in 1,370 nursing homes
         in California. It found that 30 percent had violations that caused death or life-threatening
         harm to residents, or had understated the frequency of poor care by falsifying records.
         Among the problems it reports are poor nutrition, dehydration, and improper care of
         incontinent and immobile residents which leads to pressure sores.

         Ombudsman complaints. Ombudsman nursing home complaints have also been steadily


                                                 )))))))))))
Quality of Care in Nursing Homes: An Overview         20                                   OEI-02-99-00060
         increasing, as illustrated in graph B below. Based on data from 1989 to 1994, total
         complaints in the 10 sample States grew from 57,954 to 83,669, an increase of 44 percent.
         (Due to the transition to a new data system in 1995, we do not have comparable complaint
         rates for that year).


                                                Graph B
                          At the Same Time, Ombudsman Program Complaints
                                      Increased from 1989 to 1994




         Beginning in 1996, a new Ombudsman program reporting system was used that counted
         complaints differently from the prior system. Data from 1996 and 1997 also show that
         complaints increased seven percent between these two years, from 60,926 to 65,123, as
         illustrated in Graph C below.
                                                Graph C
                Ombudsman Program Complaints Also Increased from 1996 to 1997




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        21                              OEI-02-99-00060
         Ombudsman complaints about resident care have been particulary prevalent. Of the five
         main Ombudsman program complaint categories, the resident care category increased the
         most from 1996 to 1997, growing by 13 percent. This category includes specific
         complaints about personal care (such as pressure sores and hygiene), lack of rehabilitation,
         and the inappropriate use of restraints. On a more specific level, 12 complaints had
         increases of 24 percent or more from 1996 to 1997. Two of these -- staff turnover and lack
         of staff training -- may indicate other problems with resident care.

         In 1997, the majority of all Ombudsman program complaints (63 percent) fell into 2 of 5
         categories -- resident care (32 percent) and residents’ rights (31 percent). The top 10
         complaints for that year include 3 related to inadequate nursing home staffing, as well as
         specific complaints about poor quality of care, such as poor hygiene, physical abuse, and
         improper handling and accidents.

         Resident abuse complaints. Data obtained from nursing home abuse complaint
         coordinators in the 10 sample States lack common definitions and are therefore inconsistent.
         Furthermore, these complaints are not always substantiated. Among the 10 States, there
         are no obvious trends in reported complaints; some States have upward trends and others
         downward trends. Nevertheless, approximately one percent or more of nursing home
         residents in the 10 States have had an experience serious enough to register an abuse
         complaint.

         Additionally, since 1995 the OIG has excluded 668 nursing home workers from
         participation in the Medicare or Medicaid programs as a result of a conviction related to
         patient abuse or neglect. The excluded workers were primarily nurses and nurse aides.

         Chronically substandard homes. Some nursing homes appear to be chronically
         substandard. Data from OSCAR show that some are repeatedly deficient; 463 nursing
         homes have been cited with the same deficiencies over their last past four surveys,
         representing 6 percent of all homes in the 10 sample States. State directors and surveyors
         also report that between 1 to 20 percent of nursing homes in their State have chronic quality
         of care problems. Finally, three-fourths of ombudsmen say there are some homes (10
         percent or fewer) that routinely treat residents poorly.

         Insiders’ perspectives. Survey and certification staff and ombudsmen express some
         reservations about relying exclusively on program data to identify nursing home problems.
         While generally satisfied with OSCAR data, more than half of State directors and surveyors
         believe it is not a true indicator of nursing home quality of care since it only portrays the
         situation of the nursing home at the time surveyors are physically conducting the survey.
         Ombudsmen also say that higher complaint rates do not always indicate more problems,
         pointing out that higher complaint rates could be due to a greater presence of Ombudsman
         staff in nursing homes.


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        22                                 OEI-02-99-00060
         Nevertheless, in all 10 sample States, State surveyors and survey directors, State and local
         ombudsmen, and State Aging Unit Directors confirm that problems with care persist in
         nursing homes. These are many of the same problems reported in program data. State
         surveyors and survey directors say the biggest problems they see are resident abuse, failure
         to treat incontinent patients, and improper medication distribution. Ombudsmen and State
         Aging Unit Directors identify malnutrition and other dietary concerns, bed sores,
         dehydration, poor hygiene, over-medication, toileting, and physical abuse as problems
         nursing home residents face.

Evidence suggests inadequate levels of nursing home staff
contribute to quality of care problems
         In all 10 sample States, survey and certification staff, State and local ombudsmen, and State
         Aging Unit Directors identify inadequate staffing levels as one of the major problems with
         nursing homes in their States. Most believe that these staffing shortages leads to chronic
         quality of care problems, such as failure to adequately treat and prevent pressure sores.
         They cite further concerns about the proficiency and training of nursing home staff.

         The type and extent of survey deficiencies and Ombudsman program complaints also
         suggest that nursing home staffing levels are inadequate. Common personal care problems
         such as lack of nutrition and poor care for incontinence suggest that staffing is inadequate
         to provide the level of care needed to avoid these problems. Furthermore, specific
         complaints about nursing home staff are some of the most common types of Ombudsman
         program complaints. The top complaint in 1997 was unanswered call lights and requests
         for assistance, while staff attitudes and lack of respect was third and shortage of staff was
         ninth.

Survey and certification agencies are following required
standard protocols but weaknesses in the survey system
itself limit their effectiveness
         State survey and certification agencies monitor nursing home care with timely and standard
         surveys, complaint procedures, and additional State processes. Based on OSCAR data over
         the last 4 standard surveys, all sample States completed 97 percent of their standard surveys
         in the mandated time frame of 9 to 15 months. Furthermore, all State survey directors and
         surveyors report following HCFA guidelines for their surveys, including starting with an
         entrance conference, touring the facility, interviewing residents and family members,
         reviewing medical records, and concluding with an exit conference. They also report
         having a complaint process to address complaints about nursing home practices. Seven
         States have their own survey guidelines which they use in addition to HCFA guidelines, and
         some have additional databases and information sources.

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        23                                  OEI-02-99-00060
         Despite following standard procedures, however, the survey and certification system has
         several weaknesses, including the predictability of surveys. Although all States use
         unannounced nursing home surveys, almost all directors and surveyors believe that facilities
         can anticipate the survey start date. They say that facilities often modify their normal daily
         procedures to reduce potential deficiencies, such as increasing staff on certain shifts. In
         most States, surveyors also do not begin or continue standard surveys on the weekend or in
         evening hours. State directors and surveyors therefore voice concerns about whether
         standard surveys represent an accurate reflection of quality of care in nursing homes.

         The survey and certification process is also limited by weak enforcement, including inaction
         on abuse complaints. From January 1997 to July 1998, OSCAR data reports 4,707 abuse
         complaints (involving almost one third of all nursing homes) in the 10 sample States. Two-
         thirds of these were unsubstantiated and the remaining third were substantiated. Over 90
         percent of both substantiated and unsubstantiated complaints concluded with no action,
         plans of correction, or other remedy. Furthermore, half of the State directors and three-
         fourths of surveyors indicate that current enforcement measures are questionable. They
         express concern that civil monetary penalties do not compel nursing homes to observe
         Federal regulations, are insufficient to influence nursing home chains, and are not imposed
         immediately, allowing facilities to remain non-compliant for longer periods of time. Others
         believe that current enforcement process allows deficient facilities far too many
         opportunities to avoid enforcement action.

         Finally, survey and certification agencies have a number of staffing constraints. The overall
         number of surveyors varies by State, thereby affecting the number of standard, follow-up,
         and complaint surveys each team can conduct. For example, the number of standard
         surveys on the 10 States ranges from 12 to 26 per year. State directors also express
         concern about high staff turnover rates, difficulties replacing staff once they leave, and
         limited surveyor training. They additionally report weaknesses in coordination between
         their staff and ombudsman staff. Surveyors received 13 percent of all Ombudsman program
         abuse complaints per month in 1997.

While the Ombudsman program is well designed, inadequate
resources limit its capacity
         The Ombudsman program has several functions to promote and monitor quality of care in
         nursing homes, including identifying and resolving complaints, making regular visits to
         nursing homes, and engaging in a variety of different advocacy activities. Discussions with
         State and local ombudsmen, as well as State Aging Unit Directors, emphasize the
         uniqueness of this program. In contrast to other programs, ombudsmen lack enforcement
         and regulatory oversight authorities. As independent advocates, they work solely on behalf
         of residents and are often the only voice residents have in their own care. An ongoing,
         routine nursing home presence is therefore essential to the ombudsman role. In fact, most

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        24                                  OEI-02-99-00060
         State ombudsmen (6 of 10) believe this presence is the most important part of their
         program. This presence provides ombudsmen with the opportunity to develop personal and
         confidential relationships with residents and enables them to identify and address individual
         issues before they become larger, systemic problems.

         Nevertheless, the overall capacity of the Ombudsman program is limited by inadequate
         resources, including inadequate staffing. Paid staffing and volunteer levels among the 10
         States vary considerably, ranging from 4,618 nursing home beds per paid staff in one State
         to 1,115 beds per paid staff in another. While no minimum staffing ratios are required by
         law, a 1995 Institute of Medicine study on the Ombudsman program recommends a
         standard staffing ratio of 1 paid Ombudsman staff person per 2,000 long term care facility
         beds; only 1 in the 10 sample States, Massachusetts, meets this standard. Furthermore, a
         majority of State and local Ombudsmen identify insufficient program staffing and an
         inadequate number of volunteers as obstacles which detract from their program’s
         effectiveness.

         Inadequate program staffing is particularly evident in the limited extent to which
         ombudsmen make regular nursing home visits. In the nine States that make such visits,
         volunteers are generally assigned to just one nursing home and visit this home on a weekly
         basis. However, most nursing homes in the 10 States do not have volunteers assigned to
         them, and these homes are usually visited by paid staff just once or twice a year for no
         longer than one to three hours. In fact, in four States there are nursing homes that are
         never visited by volunteers or paid staff.

         Other limitations affect the Ombudsman program’s overall capacity. Lacking a common
         standard for complaint response and resolution, ombudsman staff in some States are not
         consistently handling complaints in a timely manner. Ombudsman staff also devote varying
         amounts of time to outreach and advocacy activities, with some spending relatively little
         time on community education, work with the media, work on laws and policy, and nursing
         home staff training. Also, half of State and local ombudsmen believe their program’s lack
         of support in the State diminishes its capacity and limits their ability to influence nursing
         home policies. Lastly, they believe better collaboration is needed with the survey and
         certification agency.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        25                                  OEI-02-99-00060
State systems to safeguard nursing home residents from
abuse are inconsistent and unreliable
         Based on findings from a recent OIG audit, “Safeguarding Long Term Care Residents,” (A-
         12-97-0003) it appears that some weaknesses exist in State efforts to safeguard nursing
         home residents from abuse. This audit revealed great diversity in the way States
         systematically identify, report, and investigate suspected abuse. While no Federal
         requirement exists for criminal background checks of nursing home staff, 33 States do
         mandate that such checks occur. However, the methods used to identify individuals who
         pose a risk of abuse and the criteria followed for prohibiting employment vary widely
         among these States. Furthermore, not all States systematically report convictions to central
         databases, such as the certified nurses aide registry. It therefore appears that there is no
         assurance that individuals who may pose a risk to residents are systematically identified and
         barred from nursing home employment.

         A more in-depth audit of Maryland also found problems with nursing home hiring practices
         in that State. In particular, this audit found that five percent of employees in eight nursing
         homes had criminal records. It also noted that some of these individuals were not reported
         in the State or Federal systems used for criminal background checks, despite the fact that
         they had been convicted of elder abuse.

Public awareness and access to nursing home survey results
is limited

         Two-thirds of 155 families interviewed in eight sample cities did not know that the results
         of Federal and State nursing home inspections are available on request. Half were also
         unaware that such inspections are required. Only 15 of the 155 individuals we interviewed
         had ever requested a copy of the survey results, and of the 11 who obtained a copy, 6 said
         the results were not based on a recent survey conducted within the past 15 months.

         Most of the 32 sampled nursing homes visited by staff from the Office of Inspector General
         did not fully meet the requirements for making survey results available. In a majority of
         these homes, the notice identifying the location of the survey results was not posted and/or
         the survey results were in locations directly observed by staff, contrary to regulations. Staff
         from the OIG had to ask for the survey results in 24 of the 32 homes they visited. While
         most (27) did ultimately make the survey results available, the OIG staff had an advantage
         over other members of the public since they were aware of what to look for and how to ask
         for it.



                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        26                                   OEI-02-99-00060
         The HCFA has recently established a more easily accessible version of nursing home survey
         results with an internet site entitled Nursing Home Compare. For families with access to
         the internet, this is a promising development. When staff from the OIG located this site,
         they found it easy to understand. Most of the families interviewed said it could be very
         helpful in providing useful nursing home information.

New initiatives based on law enforcement approaches are
being considered
         Initiatives to strengthen nursing home law enforcement are relatively new. Particularly
         noteworthy is the formation of nursing home task forces at the local, State, and national
         levels, comprised of representatives from the Department of Justice, HCFA, OIG, and other
         agencies. These groups will examine and develop action plans for several enforcement
         strategic areas and will address the full range of nursing home enforcement issues. They will
         collaborate with Medicaid Fraud Control Units, the State Attorneys General, State survey
         agencies, and other oversight agencies. Among the strategic areas targeted are: improving
         the handling of civil monetary penalty referrals; reviewing patient abuse and neglect
         legislation for model State legislation; recommending possible new legislation for
         prosecuting abuse and neglect; reviewing current services available to abuse victims; and
         identifying emerging quality of care and fraud problems in nursing homes.

         By targeting key strategic areas and coordinating among the various agencies responsible
         for nursing home enforcement, these initiatives appear promising. If successful, they should
         strengthen enforcement of nursing home problems. However, it is too soon to determine
         the full impact of these enforcement initiatives. Some of the task forces and action plans
         will not be fully developed until early 1999, and at the earliest, preliminary results will not
         be available until later in that year.

Nursing home reforms established by OBRA 1987 have not
been systematically assessed
         The nursing home reforms created by OBRA 1987 impacted both nursing home systems
         and nursing home care. First, these reforms essentially changed the focus from a nursing
         home’s ability to provide care to the quality of the care actually provided. The OBRA 87
         requires nursing homes participating in Medicare and Medicaid to comply with extensive
         standards. These standards include ensuring various resident rights, rights related to
         admission, transfer and discharge, and the right to be free from restraints and abuse. The
         OBRA 87 also requires nursing homes to promote residents’ quality of life, conduct
         periodic resident assessments, and provide the necessary care needed for residents to
         maintain the highest practicable physical, mental, and psychosocial well-being. Additionally,
         OBRA 87 requires nursing homes to provide certain services, including nursing, dietary,
         physician, rehabilitative, dental, and pharmacy services. Finally, several administrative

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        27                                  OEI-02-99-00060
         standards were also established, including requirements for nurse aide training, a medical
         director, and clinical records.

         The OBRA 87 also changed nursing home enforcement and survey procedures. Among
         these changes are: the development of the Resident Assessment Instrument (RAI), which is
         a standardized assessment instrument for nursing home residents; a more outcome oriented
         survey that emphasizes gathering information by observing and interviewing residents; and
         new intermediate enforcement remedies that augment existing options for noncompliant
         nursing homes.

         While it has now been more than a decade since OBRA 1987 was first passed, there has
         been no systematic assessment of its extensive agenda and no methodical evaluation of
         whether or not the reforms it intended are actually working. In its 1998 Report to
         Congress, HCFA attributes positive changes in the use and outcomes of resident assessment
         instruments and psycho-pharmacological medications to OBRA 87. The HCFA also
         concludes that new enforcement and survey regulations have been effective. Other studies
         have addressed additional OBRA reforms, including OIG reports on nursing home
         prescription drug use and resident abuse. Furthermore, data from survey and certification
         and Ombudsman program reporting systems suggest the OBRA requirement that residents
         be free from restraints is having some effect; deficiencies on restraints and ombudsman
         restraint complaints have been decreasing over the past several years. Nevertheless, the
         success of this major legislation has not yet been established. A definitive assessment of the
         extent to which OBRA reforms have bettered conditions in nursing homes is therefore
         needed.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        28                                 OEI-02-99-00060
       AN AGENDA FOR CONTINUING IMPROVEMENT IN
                 NURSING HOME CARE

         Since OBRA 1987 was first passed, real improvements have been made in nursing home
         care. More recently, considerable attention has been paid to addressing persisting concerns
         about nursing home conditions and systems. In particular, we commend the Health Care
         Financing Administration (HCFA) for its extensive nursing home initiative since it addresses
         many of these persisting problems. This initiative includes many individual action items
         which should result in positive changes. Additionally, the Administration on Aging (AoA)
         has been taking steps to enhance the Ombudsman program, including improving the
         program reporting system and conducting annual training of ombudsman staff.

         The problems we describe in this report will require continuing attention, possibly for
         several years. The broad outline of an effective strategy would include actions to:

                   <         enhance the survey and certification process;

                   <         strengthen the Ombudsman program with increased resources;

                   <         improve nursing home staffing levels; and

                   <         improve coordination between State survey agencies and ombudsmen. 


         We also believe that further evaluation and progress measurement would make an important
         contribution to efforts to advance nursing home care. We specifically suggest:

                   <         a systematic assessment of OBRA 1987; and

                   <         the creation of a periodic report card on conditions in nursing homes.


         We have incorporated action items from HCFA’s nursing home initiative, AoA’s
         Ombudsman program activities, recommendations for additional steps to be taken, current
         OIG work, and areas requiring further evaluation into one comprehensive, long term agenda
         to continue improvements in nursing home care. This agenda consists of a three stage
         approach of immediate action, research and evaluation, and continued progress
         measurement. It is outlined below.




I.       Immediate Action

                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        29                                      OEI-02-99-00060
         We believe immediate action should be taken to strengthen the capacity of systems designed
         to oversee nursing home care. We also believe improvements should be made in nursing
         home staffing levels, since this directly impacts on the care residents receive.

           Survey and Certification
           Survey enforcement efforts. Strengthen survey enforcement         Addressed in
           efforts by: making surveys more timely, effective, and            HCFA initiative
           unpredictable; increasing the number of night and weekend
           surveys and surveys at chronically substandard homes;
           focusing on specific problems, such as pressure sores;
           eliminating grace periods for homes with repeat serious
           violations; proposing new civil monetary penalties; and placing
           survey results on the internet.

           Enhanced monitoring. Enhance monitoring of special focus          Addressed in
           facilities.                                                       HCFA initiative.

           Surveyor training. Provide additional training and assistance     Partially
           to State surveyors.                                               addressed in
                                                                             HCFA initiative

           Surveyor staffing. Evaluate State surveyor staffing to assure     Action under
           adequate staffing is available.                                   consideration by
                                                                             HCFA

           Surveyor coordination. Provide a forum for surveyors to meet      Action under
           and discuss common issues.                                        consideration by
                                                                             HCFA

           Abuse. Add survey task to look at provider’s abuse                Addressed in
           intervention system, develop national abuse intervention          HCFA initiative
           campaign, and promote prosecution of egregious violators.

           Ombudsman Program
           Visibility. Develop guidelines for minimum levels of              Partially
           Ombudsman program visibility, including criteria for              addressed by
           frequency and length of regular visits and staffing ratios.       AoA through
                                                                             annual training

           Volunteers. Formulate strategies for recruiting, training, and    Partially
           supervising more ombudsman volunteers.                            addressed by
                                                                             AoA through
                                                                             annual training
                                                                             and Ombudsman
                                                                             Resource Center


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        30                                         OEI-02-99-00060
           Complaint response and resolution. Develop guidelines for           Not currently
           ombudsman complaint response and resolution times.                  addressed

           Reporting system. Continue to refine and improve the                Continuing
           Ombudsman program’s data reporting system.                          attention by AoA

           Coordination with Survey and Certification. Establish ways          Continuously
           to enhance coordination between survey and certification and        addressed
           Ombudsman programs.

           Resident Abuse Safeguards
           Employment safeguards. Improve the safety of residents and          Addressed in
           strengthen safeguards against employment of abusive workers.        HCFA initiative

           Nursing Home Staffing
           Staffing standards. Develop staffing standards for registered       Currently being
           nurses and certified nurse assistants in nursing homes to assure    studied by HCFA
           sufficient staff on all shifts to enable residents to have proper
           care.

           Care Guidelines
           Malnutrition and dehydration. Develop best practice                 Addressed in
           guidelines for malnutrition and dehydration care and national       HCFA initiative
           campaign to increase awareness of these problems.

           Drug usage. Develop guidelines and protocols for using              Addressed in
           effective drugs.                                                    HCFA initiative

           Family Involvement
           Family awareness and access. Promote and facilitate greater         Action under
           awareness and access to survey results by strengthening             consideration by
           existing avenues for receiving information and identifying new      HCFA
           avenues.

II.      Research and Evaluation

         We also propose the development of a research and evaluation program to assess the
         quality of care in nursing homes, including a systematic look at each of the legislative
         reforms established with OBRA 1987 and other quality of care issues. In the following
         table, we indicate where the OIG is conducting or planning work. As the Office of
         Inspector General, we have a particular interest in assuring that the standards mandated by
         OBRA 1987 are being met. Since we do not expect to address all of the nursing home
         requirements and issues we have identified, we invite others to join us in this evaluation.


                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        31                                           OEI-02-99-00060
           OBRA 1987
           Prescription Drugs. Assess the extent and appropriateness of     OIG report
           prescription drug use by nursing home residents and describe     issued
           consultant pharmacists’ concerns about drug use.

           Resident assessment. Determine the systems used by nursing       OIG study
           homes to conduct periodic resident assessments and plans of      underway
           care and evaluate how this impacts reimbursement.

           Nurse aide training. Evaluate nurse aide training                In OIG workplan

           Abuse reporting. Examine the extent to which States have         In OIG workplan
           implemented abuse reporting requirements.

           Medical director. Examine the role medical directors play in     In OIG workplan
           assuring quality of care.

           Resident rights. Assess the extent to which nursing homes are
           assuring resident rights.

           Admission rights. Assess the extent to which nursing homes
           are assuring admission, transfer, and discharge rights.

           Restraints and abuse. Assess whether rights to be free from
           restraints and abuse are being met.

           Quality of life. Assess whether or not nursing homes are
           providing care which promotes each resident’s quality of life.

           Resident well-being. Determine if nursing homes are
           providing care and services to maintain the highest levels of
           residents’ physical, mental, and psychosocial well-being.

           Nursing home services. Determine if nursing home staffing
           levels are adequate to provide required nursing, dietary,
           physician, rehabilitative, dental, and pharmacy services.

           Physical environment. Determine if nursing homes are
           maintaining a healthy and safe physical environment.

           Other Quality of Care
           Resident satisfaction. Determine the level of resident           OIG study
           satisfaction with nursing home care.                             underway

           Immunizations. Examine the obstacles to immunizing 80% of        OIG study
           nursing home residents against pneumoccocal disease and          underway
           influenza.



                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        32                                       OEI-02-99-00060
III.     Progress Measurement

         Finally, an independent, continuous assessment is needed to measure the progress made in
         raising the standard of nursing home care.

           Periodic Assessments
           Periodic report card. Conduct periodic evaluations describing   Under
           conditions in nursing homes based on deficiency trends,         consideration by
           ombudsman complaints, resident satisfaction, and insiders’      OIG
           perspectives.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        33                                       OEI-02-99-00060
                              AGENCY COMMENTS

         This report is based primarily on a series of recent studies conducted by the Office of
         Inspector General on nursing home care. They are:

                   Nursing Home Survey and Certification: Deficiency Trends, OEI-02-98-00331;

                   Nursing Home Survey and Certification: Overall Capacity, OEI 02-98-00330;

                   Long Term Care Ombudsman Program: Complaints Trends, OEI-02-98-00350;

                   Long Term Care Ombudsman: Overall Capacity, OEI-02-98-00351;

                   Public Access to Nursing Home Survey and Certification Results, OEI-06-98-

                   00280; and

                   Safeguarding Long Term Care Residents, A-12-97-0003.


         We received detailed comments from HCFA, AoA, and the Assistant Secretary for Planning
         and Evaluation on the above reports. We made modifications in each report to respond to
         the comments received and to reflect the actions already being taken to improve nursing
         home conditions. This overview report also incorporates many of these modifications. We
         encourage everyone to read the individual reports and the comments we received on them.
         The comments are included in each report.




                                                )))))))))))
Quality of Care in Nursing Homes: An Overview        34                                  OEI-02-99-00060
